 DEPARTMENT OF HOMELAND SECURITY
     Office of Inspector General


    Customs and Border Protection Award
       and Oversight of Alaska Native
    Corporation Contract for Enforcement
     Equipment Maintenance and Field
            Operations Support




OIG-08-10                  October 2007
Appendix J
Report Distribution
                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Policy
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Legislative and Intergovernmental Affairs
                      Commissioner, Customs and Border Protection
                      Audit Liaison, Customs and Border Protection

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




                         CBP Award and Oversight of Alaska Native Corporation Contract for
                         Enforcement Equipment Maintenance and Field Operations Support

                                                     Page 26
Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations:

   •   Call our Hotline at 1-800-323-8603;
   •   Fax the complaint directly to us at (202) 254-4292;
   •   Email us at DHSOIGHOTLINE@dhs.gov; or
   •   Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600, Attention:
       Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
       Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
